<html>
<title> - TWENTY-YEARS OF U.S. POLICY ON NORTH KOREA: FROM AGREED FRAMEWORK TO STRATEGIC PATIENCE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                  TWENTY-YEARS OF U.S. POLICY ON NORTH

                    KOREA: FROM AGREED FRAMEWORK TO

                           STRATEGIC PATIENCE
=======================================================================



                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 30, 2014

                               __________

                           Serial No. 113-214

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______




                  U.S. GOVERNMENT PRINTING OFFICE
88-917                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida--resigned 1/27/  GRACE MENG, New York
    14                               LOIS FRANKEL, Florida
DOUG COLLINS, Georgia                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida 
LUKE MESSER, Indiana--resigned 5/
    20/14 
SEAN DUFFY, Wisconsin--
    added 5/29/14 
CURT CLAWSON, Florida--
    added 7/9/14 

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                  Subcommittee on Asia and the Pacific

                      STEVE CHABOT, Ohio, Chairman
DANA ROHRABACHER, California         ENI F.H. FALEOMAVAEGA, American 
MATT SALMON, Arizona                     Samoa
MO BROOKS, Alabama                   AMI BERA, California
GEORGE HOLDING, North Carolina       TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            BRAD SHERMAN, California
DOUG COLLINS, Georgia                GERALD E. CONNOLLY, Virginia
LUKE MESSER, Indiana--5/20/14        WILLIAM KEATING, Massachusetts
    noon deg.
CURT CLAWSON, Florida --
    added 7/9/14 
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Glyn Davies, Special Representative for North Korea 
  Policy, Bureau of East Asian and Pacific Affairs, U.S. 
  Department of State............................................     6
The Honorable Robert King, Special Envoy for North Korean Human 
  Rights, Office of the Special Envoy for Human Rights in North 
  Korea, U.S. Department of State................................    14

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Glyn Davies: Prepared statement....................     8
The Honorable Robert King: Prepared statement....................    16

                                APPENDIX

Hearing notice...................................................    36
Hearing minutes..................................................    37


                  TWENTY-YEARS OF U.S. POLICY ON NORTH



                    KOREA: FROM AGREED FRAMEWORK TO


                           STRATEGIC PATIENCE

                              ----------                              


                        WEDNESDAY, JULY 30, 2014

                       House of Representatives,

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 2 o'clock p.m., 
in room 2172 Rayburn House Office Building, Hon. Steve Chabot 
(chairman of the subcommittee) presiding.
    Mr. Chabot. Good afternoon and welcome to this afternoon's 
subcommittee hearing. I want to thank Mr. Ami Bera for serving 
as today's ranking member and also thank our distinguished 
witnesses for being here. It has taken 6 months for our 
schedules to align, so we hope this afternoon's hearing is a 
productive one.
    In March, this subcommittee held a hearing to examine the 
findings of the United Nations Commission of Inquiry Report on 
human rights in North Korea. Anyone would be hard pressed to 
deny the extent of human rights abuses being committed by the 
most repressive totalitarian regime on earth. The report, the 
first of its kind, was a shocking wake-up call for the 
international community to take action--for the U.S. to take 
action. Unfortunately, it's been over 5 months and we're still 
waiting for some pretty significant action on this.
    North Korea is one of the greatest security threats to the 
peace and stability of Asia and one of the United States' most 
vexing security challenges. It is also one of the greatest 
policy failures of the past two decades.
    This year marks the 20th anniversary since the United 
States and North Korea signed the Agreed Framework, which 
called on North Korea to freeze operation and construction of 
nuclear reactors suspected of being part of a covert nuclear 
weapons program. While this agreement framed our relations for 
about 8 years, from North Korea's vantage point it was a ruse, 
as the entire time Pyongyang continued to develop its uranium-
enrichment capabilities.
    Then, in an effort to continue nuclear negotiations with 
North Korea, we took a multilateral approach and began the Six-
Party Talks. Once again, concession after concession, this 
method of negotiation also failed and has been stalled since 
December 2008.
    So where are we today? North Korea has tested three nuclear 
devices since 2006, the most recent in early 2013, and has 
declared itself a nuclear armed state. Belligerent and 
threatening rhetoric from Pyongyang's dilettante leader has 
escalated since he took the Kim throne in December 2011. It has 
launched nearly 100 ballistic missiles, artillery and rockets 
combined since the beginning of this year. And its web of 
illicit activities and dealings with terrorist organizations 
around the world has expanded. Ultimately, North Korea's 
proliferation of nuclear weapons and support to groups that 
oppose Western interests continues unfettered and without 
limitation.
    Most of the world's attention today is locked on Ukraine, 
where Russia is supporting the infiltration of rebel troops 
into Crimea and Eastern Ukraine; and the Middle East, where 
Hamas operatives in Gaza are trying to wipe Israel off the map. 
But we must also look East. It should come as no surprise that 
just this past weekend, it was reported that Hamas militants 
are negotiating a weapons deal worth hundreds of thousands of 
dollars with North Korea for missiles and communications 
equipment. This relationship was first made public in 2009 when 
35 tons of surface-to-surface rockets and rocket-propelled 
grenades were destined for Iran, which then planned to smuggle 
to Hezbollah in Lebanon and Hamas in Gaza. And last week, a 
U.S. Federal judge ruled that North Korea, in concert with Iran 
and Syria, was responsible for providing materials and 
assistance to Hezbollah terrorists who fired rockets into 
Israel during an offense that occurred in 2006. But again, 
nothing is being done to obstruct these weapons sales or the 
cargo ships traversing the world's oceans with weapons in the 
cargo bay.
    Over the years, North Korea has branded itself as a one-
stop shop for missile and nuclear materials and technology--the 
ultimate facilitating bad guy--providing whatever its anti-
American friends want so long as it gets the oil, cash and 
materials it needs to maintain the power of the Kim regime. It 
is not a secret that North Korea has long cavorted with the 
likes of Iran and Syria, and in fact helped build Syria's 
nuclear facility destroyed by Israel in 2007. North Korea's 
last nuclear test, where Iranian nuclear experts were 
reportedly present, also underlined the harsh reality--North 
Korea's weapons capabilities are advanced and possibly more 
advanced than Iran's, further highlighting the tremendous 
failure of efforts made by every administration since the early 
1990s.
    As the evidence continues to mount of the grave threat that 
North Korea poses to the rest of the world, the Obama 
administration's official position is that North Korea is ``not 
known to have sponsored any terrorist acts since the bombing of 
a Korean Airline's flight in 1987.'' Even more staggering, on 
July 20th, Secretary Kerry noted that North Korea was 
``quieter'' than previous years and that the U.S. is indeed 
``moving forward'' with efforts to denuclearize North Korea. 
According to our records, the past few months have been one of 
the most historically active periods by North Korea in terms of 
testing missiles, including U.N. restricted ballistic 
technology. I don't think North Korea's recent behavior can be 
called ``quiet.''
    Simply put, the administration's do nothing ``strategic 
patience policy'' is crumbling to pieces waiting for North 
Korea to beseech for negotiations aimed at limiting its nuclear 
and missile potential. Kim Jong-un has no interest in 
denuclearization. Outsourcing our North Korea policy to China, 
North Korea's top trading partner and source of revenue, has 
also yielded little progress, but we are still sitting idly by, 
waiting for Beijing's patience with Pyongyang to wear thin.
    The ongoing pursuit of restarting Six-Party Talks is 
futile. It has been 6 years and at this point, we are only 
wasting time as Pyongyang augments its fissile material 
stockpile and improves its missile and nuclear capabilities. 
The administration refuses to impose tougher and more targeted 
sanctions on North Korea like those on Russia, Zimbabwe, Iran, 
Cuba, Sudan, and Belarus because it believes doing so would 
``unnecessarily hinder its ability to conduct foreign policy.'' 
It won't list the world's most prolific money launderer, 
counterfeiter, and state drug trafficker as a country of 
Primary Money Laundering Concern, but Iran and Burma are; and 
our current policy has done nothing to help the North Korean 
people. I remain disappointed that so little has been done to 
hold the Kim regime responsible for its horrific human rights 
abuses detailed in the U.N. Commission of Inquiry Report.
    North Korea is a grave threat to the United States and our 
allies in Asia. We cannot continue to wait for North Korea to 
decide it wants to negotiate. A non-nuclear North Korea is an 
elusive goal if the administration maintains its current 
strategic trajectory. The Kim regime is responsible for the 
horrific deaths of people not only within North Korea, but 
around the world. It is time to put our resources together and 
act. Rewarding North Korea for ``reversible steps'' on the 
pretense that it will commit to denuclearization has failed 
before, so let us not ``buy the same horse twice.''
    I look forward to hearing from our witnesses and I yield to 
the ranking member, Mr. Bera, for 5 minutes.
    Mr. Bera. Thank you, Chairman Chabot. Thank you for calling 
this important hearing. I also want to thank the witnesses 
today for your service to our country and your patience in what 
has to be one of the most diplomatic challenges in terms of 
moving North Korea forward.
    As mentioned, this year marks the 20th anniversary of the 
agreed framework between the United States and North Korea. Our 
foreign policy toward North Korea has always been challenging, 
given that North Korea's posture in the region is inconsistent 
and at times aggressive. That said, throughout the years we 
have tried on numerous occasions to negotiate with North Korea 
on denuclearization, while also promoting the strategic 
patience approach. However, I continue to be very concerned, as 
the chairman has mentioned, with North Korea's nuclear 
ambitions, its aggression toward our allies in South Korea and 
Japan, and its dismal human rights record.
    North Korea's testing of ballistic missiles and nuclear 
tests throughout the last 15 years is unacceptable and poses 
serious security concerns in the region. Earlier this month, 
North Korea fired more than 100 rockets and artillery shells 
toward South Korea's border presumably in protest of joint U.S. 
and South Korean military exercises. And our allies in Japan, 
even as they attempt to promote diplomatic dialogue with North 
Korea on resolving the abductions of Japanese citizens, the 
Korean People's Army launched short-range missiles into the Sea 
of Japan in late June. These type of provocative actions toward 
our allies are deeply concerning. The U.S.-China relationship, 
along with our trilateral relations with South Korea and Japan 
is crucial in solving the inter-Korean conflict. We have to 
take an original approach and we have to work together with our 
partners in the region.
    The conflict has multilateral implications and therefore is 
not only a U.S. interest. As the world's greatest democracy, we 
must take a tougher stance with the international community on 
North Korea's threatening antics. North Korea must view our 
partnership as a regional effort to support a peaceful and 
stable Pacific region. We have to put the pressure on the North 
Korean Government with stricter sanctions so we can engage in 
diplomatic dialogue and make positive steps toward 
denuclearization. We should also encourage North Korea to 
enforce the 2005 Six-Party Talk agreements. North Korea should 
be sincere with its commitment to the 2005 joint statement and 
allow IAEA inspectors to renew their activity in the country.
    I am also concerned with North Korea's deplorable human 
rights record. North Koreans do not have freedom of speech, 
movement, or religion and are also subject to chronic 
starvation and a dismal public health system. The U.S., based 
on our values as Americans, should remain a strong supporter 
and leader within the global community in promoting human 
rights.
    I look forward to reviewing our actions, positions, and 
policies toward North Korea as we work on denuclearization and 
our human rights record. Mr. Chairman, with that, I would like 
to yield back and thank you for calling this hearing.
    Mr. Chabot. Thank you, the gentleman yields. The gentleman 
from California is recognized for an opening statement.
    Mr. Sherman. Thank you, Mr. King, welcome home. Mr. 
Chairman, thank you for holding these hearings. It was just a 
few months ago that you and I were at the DMZ and also 
discussing North Korea with President Park and with Prime 
Minister Abe. North Korea doesn't trade with us, doesn't need 
us. It needs China from which it obtains enormous subsidies. We 
should be trying to change the behavior of North Korea directly 
and more importantly China with a combination of carrots and 
sticks, even though the North Korean Government is despicable 
and politically we could all try to outdo each other and who 
could be more opposed to the government, both carrots and 
sticks are called for.
    On the carrot side, we ought to discuss with North Korea a 
nonaggression pact. They have asked for that in the past. It 
isn't our usual way of conducting State Department business, 
but it is something they want, something we can give them. And 
if they ever see that Mr. Cheney might be Vice President again, 
they might appreciate an official U.S. position against 
invasion.
    Second, we can tell the Chinese that even if there is 
unification, no American military forces will be stationed 
north of the 38th parallel.
    As to sticks, we have to look at the lopsided trade 
relationship with China, access to the U.S. markets is not 
guaranteed by the U.N. charter. North Korea may not be quite as 
dangerous as other states because it is not as ambitious as 
Iran. It seeks only to oppress its own people. But with a 
erratic government shown to be even more erratic in the last 6 
months, and a growing nuclear stockpile, we have ever reason to 
try to trim the danger posed by North Korea. I yield back.
    Mr. Chabot. Thank you. The gentleman yields back. I would 
now like to introduce our distinguished panel here this 
afternoon. Ambassador Glyn Davies is the Special Representative 
of the Secretary of State for North Korean policy. He was 
appointed in January 2012 to facilitate high-level engagement 
with our other Six-Party Talk partners. He serves as a senior 
emissary for U.S. engagement with North Korea. He also oversees 
U.S. involvement in the Six-Party Talks process, as well as 
other aspects of our security, political, economic, human 
rights, and humanitarian assistance policy regarding North 
Korea.
    Special Representative Davies is a career member of the 
Senior Foreign Service and served as the Permanent 
Representative of the United States to the International Atomic 
Energy Agency and the United Nations office in Vienna. His 
prior assignments include Principal Deputy Assistant Secretary 
of State, Bureau of East Asian and Pacific Affairs and 
Executive Secretary of the National Security Council staff and 
we welcome you this afternoon, Mr. Ambassador.
    I will next introduce Robert King. Ambassador Robert King 
became the Special Envoy for North Korean Human Rights Issues 
in November 2009 following confirmation by the United States 
Senate. Ambassador King works under Ambassador Davies and has 
the lead on human rights and humanitarian affairs. Prior to his 
appointment, Ambassador King worked on Capitol Hill for 25 
years--24 of those years as chief of staff to Congressman Tom 
Lantos. He was concurrently staff director of the Foreign 
Affairs Committee of the U.S. House of Representatives, 
Democratic staff director of the committee, and held various 
professional staff positions on the committee since 1993. 
Ambassador King holds a Ph.D. in International Relations from 
the Fletcher School of Law and Diplomacy, Tufts University. He 
has authored several books and numerous articles on 
international relations and we welcome you here this afternoon 
as well, Mr. Ambassador.
    I am sure you are both familiar with the 5-minute rule so I 
won't take a lot of time. The yellow light will come on and it 
means you have 1 minute and we hope you wrap up as close as 
possible when the red light comes on and we will limit 
ourselves to 5 minutes as well.
    We will begin with you, Ambassador Davies. You are 
recognized for 5 minutes.

STATEMENT OF THE HONORABLE GLYN DAVIES, SPECIAL REPRESENTATIVE 
   FOR NORTH KOREA POLICY, BUREAU OF EAST ASIAN AND PACIFIC 
               AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Davies. Chairman Chabot, thanks so much. Representative 
Bera, and members of the committee, thanks so much for inviting 
me and my colleague, Ambassador King, to testify today on U.S. 
policy toward the Democratic People's Republic of Korea, DPRK 
for short, commonly known as North Korea.
    The North Korean regime is a global pariah. It works 
against the interests of its own people, its neighbors, and the 
world.
    Mr. Chabot. Would you mind pulling the mic just a little 
bit closer?
    Mr. Davies. Sure, absolutely.
    Mr. Chabot. I want everybody in the room to hear.
    Mr. Davies. Here we go, is that better?
    Mr. Chabot. That is better.
    Mr. Davies. It violates its obligations by pursuing nuclear 
weapons and ballistic missiles, posing a growing threat to the 
United States, our friends and allies, and the global 
nonproliferation regime. It devotes an enormous amount of its 
scarce resources to weapons, to a massive standing army, and to 
vanity projects, all while nine out of ten North Koreans 
suffer.
    We have no illusions about the nature of the regime. We 
have refused to reward its provocations with concessions. We 
have instead tightened sanctions and told the DPRK that neither 
its occasional charm offenses nor its more frequent aggressive 
behavior will lead us to accept a nuclear armed North Korea. 
Like all recent administrations, we are open to engagement when 
possible, but will apply pressure as needed.
    Despite DPRK backtracking, we remain committed to authentic 
and credible denuclearization talks, but talks won't succeed 
until Pyongyang recognizes and demonstrates that it will live 
up to its promises. Regrettably, the DPRK increasingly rejects 
meaningful negotiations. Instead, it has unleashed multiple 
provocations that have drawn condemnation and increased its 
isolation. Just in recent weeks, it has conducted repeated 
ballistic missile launches in violation of U.N. Security 
Council resolutions. These followed similar launches earlier 
this spring, punctuated on March 30 with threats to conduct a 
new type of nuclear test.
    The DPRK says it wants talks without preconditions. 
Translation: It seeks open-ended Six-Party Talks to gain 
acceptance as a nuclear weapons state, and to camouflage its 
secret weapons development. We are not interested in talks 
unless their primary order of business is implementing North 
Korea's September 2005 promise to denuclearize.
    The Republic of Korea is squarely at the center of our 
efforts. There is no daylight between us on what we expect from 
North Korea. President Obama, speaking in South Korea in April, 
expressed support for President Park's vision of peaceful, 
progressive unification. The U.S.-ROK alliance in its 60th year 
is stronger than ever. Our day-to-day combined efforts to 
maintain peace and stability on the peninsular send a strong 
deterrence signal to North Korea that the security it seeks is 
not to be found in nuclear weapons. Our growing U.S.-ROK-Japan 
trilateral security cooperation also sends a powerful message 
of deterrence to Pyongyang.
    As North Korea's last remaining protector and patron, 
China, has a key role to play in convincing North Korea to 
denuclearize. That is why North Korea remains at the top of our 
bilateral agenda with Beijing. Secretary Kerry raised it 
prominently there in early July.
    We welcome the steps that PRC has taken to oppose 
Pyongyang's nuclear weapons program. Since 2012, China has 
voted for two new rounds of U.N. sanctions and last year, 
published a 900 item control list banning their export to North 
Korea. Together with our allies and partners, we seek to show 
North Korea its nuclear program stands in the way of the secure 
future it says it wants. We continue to increase the cost of 
its illicit activities by unilaterally tightening sanctions. We 
work closely with the U.N. Security Council and like-minded 
partners to ensure full implementation of the four key Security 
Council resolutions.
    The July 2013 seizure by Panama of a huge cache of military 
gear demonstrates U.N. sanctions are effective.
    The welfare of North Korea's people is an essential focus 
of U.S. policy. The vast majority suffer from the Government's 
self-impoverishing military-first policy. The U.N. Commission 
of Inquiry's sobering report detailed the systematic, 
widespread, and gross human rights violations being committed 
by the DPRK.
    My colleague, Robert King's tireless efforts for many years 
demonstrate that human rights is a constant focus for us. There 
are three U.S. citizens that are being held by North Korea. 
Their continued detention is a serious stumbling block to 
approved U.S.-DPRK relations. We will continue to advocate for 
their freedom and thank Congress for its steadfast support in 
these efforts.
    Mr. Chairman, we aim to convince the DPRK to comply with 
its obligations, end its isolation, and respect of the rights 
of its people. Each outrageous North Korean act discredits the 
assertion it is driven to act belligerently by others' 
hostility. It is now clearer than ever that North Korea is 
developing nuclear weapons and ballistic missiles merely to 
prolong the Kim regime and to obtain benefits from the 
international community. North Korea alone is responsible for 
North Korean actions and resolving the DPRK nuclear program is 
a multilateral task.
    Just as North Korea's original aggression against the South 
was met with a strong response from the United Nations, 
standing up to North Korea today requires a concerted effort by 
the entire international community.
    Thank you again, Mr. Chairman, and members of the panel for 
the opportunity to appear before you today and I am happy, 
obviously, to take your questions.
    [The prepared statement of Mr. Davies follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Chabot. Thank you very much, Ambassador Davies. And we 
will now turn to Ambassador King. You are recognized for 5 
minutes.

STATEMENT OF THE HONORABLE ROBERT KING, SPECIAL ENVOY FOR NORTH 
  KOREAN HUMAN RIGHTS, OFFICE OF THE SPECIAL ENVOY FOR HUMAN 
        RIGHTS IN NORTH KOREA, U.S. DEPARTMENT OF STATE

    Mr. King. Thank you very much, Mr. Chairman, Congressman 
Bera, members of the committee. Thank you for this invitation 
to testify with Ambassador Davies on U.S. policy on North 
Korea. I will focus on human rights aspects of our policy on 
which there has been broad bipartisan cooperation.
    I want to thank you, Mr. Chairman, and committee members, 
for your interest in the North Korean human rights issues for 
the hearings that you have held, for the meetings that you have 
held both here and in Seoul and Tokyo with victims and their 
families.
    North Korea remains a totalitarian state which seeks to 
dominate all aspects of its citizens' lives including denial of 
basic freedoms and human rights. Reports portray a vast network 
of political prison camps where individuals are subjected to 
forced labor under horrific conditions and the government 
commits human rights violations that include extrajudicial 
killing, enslavement, torture, prolonged arbitrary detention, 
abduction of foreign citizens as well as rape, forced abortion 
and other sexual violence.
    This past year, we have made significant progress on our 
efforts to increase international pressure on the North, to 
improve its human rights. In March of last year, the U.N. Human 
Rights Council established a landmark Commission of Inquiry to 
examine grave, widespread, and systematic violation of human 
rights in North Korea. Refugees from North Korea gave the 
Commission first-hand accounts of abuse and violence and 
leading international experts described the government policies 
that repress their people. Public hearings were held in Seoul, 
Tokyo, London, and here in Washington, DC, video and written 
transcripts of those hearings are available on the U.N. Web 
site.
    The Commission's final report was one of the strongest and 
finest reports that the U.N. has produced. The Commission 
concluded that the gross violations of human rights have been 
and continue to be committed by the North Korean Government and 
its officials. And in many cases, those violations meet the 
high standard, the high threshold required for proof of crimes 
against humanity and international law.
    The Commission formally presented its final report of the 
Human Rights Council in March of this year. After hearing from 
the Commission, the Council overwhelmingly approved a 
resolution calling for accountability for those responsible for 
the abuses and for the creation of a field office under the 
High Commissioner for Human Rights to preserve and document 
evidence of these human rights abuses. South Korea has agreed 
to host this office.
    Building on this momentum in April, the United States with 
Australia and France convened the first ever U.N. Security 
Council discussion of human rights in North Korea. The 
Commission presented its report. Two North Korean refugees 
spoke of their personal experiences. Eleven of the 13 Security 
Council members who attended that meeting expressed support for 
the report and called for accountability for the crimes that it 
outlined.
    As I participated in the various U.N. meetings this past 
year, two things have struck me. First, it is clear that the 
North is feeling the growing international pressure. The 
mounting condemnation of its human rights record has struck a 
chord in Pyongyang. Second, with a growing number of countries 
critical of North Korean human rights, the only countries who 
defend the North are the world's worst human rights violators: 
Belarus, Cuba, Iran, Syria, Zimbabwe.
    Mr. Chairman, another key human rights matter that I want 
to raise is our effort to increase access to information by the 
North Korean people. That country is one of the most closed 
societies on this planet. Internet access is reserved for a 
tiny, tiny elite. It is illegal to own a radio or television 
set that can be tuned to any channel other than the official 
government media. Anyone caught listening to foreign radio or 
television will be sent to a reeducation camp.
    Despite these consequences of listening to foreign media, 
35 percent of North Korean refugees and travelers listen to 
foreign radio broadcasts in North Korea. Foreign DVDs are now 
being seen by even larger numbers. Eighty-five percent of those 
interviewed have seen foreign, primarily South Korean media. 
Some 2 million cell phones for North Koreans to communicate 
with each other, although only domestic calls are permitted and 
phone use is carefully monitored.
    Because of the closed nature of North Korea, our 
international media efforts are among the most effective we 
have of breaking the government's information monopoly. Thank 
you for continuing congressional support, for the Broadcasting 
Board of Governors and the media that it supports including 
Radio Free Asia and the Voice of America.
    Finally, Mr. Chairman, I want to reiterate one point that 
Ambassador Davies has made. We have no greater priority than 
the welfare and safety of U.S. citizens abroad. We continue 
actively to seek the release on humanitarian grounds of Kenneth 
Bae, Matthew Miller, and Jeffrey Fowle, so that they may be 
reunited with their families.
    Just as important as it is that North Korea address the 
issues that Ambassador Davies has talked about in terms of 
security and nuclear issues, it also must address its egregious 
human rights violations. The choice is clear. If North Korea 
does not take this action, it will continue to face greater 
isolation, condemnation, and increasing pressure from the 
international community.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. King follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Chabot. Thank you very much, Mr. Ambassador. Members 
will now have 5 minutes to ask questions and I will begin with 
myself.
    Ambassador Davies, on July 20th, Secretary Kerry was quoted 
as saying that North Korea has been quieter. I wouldn't 
describe the historic number of missiles and rocket and 
artillery launches this year--so far nearly 100--as quiet. I 
also don't believe that solely because North Korea hasn't 
staged another nuclear test this year that we would necessarily 
call Pyongyang's behavior quiet. Can you perhaps clarify why 
Secretary Kerry is describing North Korea as such and tell us 
how you can justify that classification?
    Mr. Davies. Mr. Chairman, the Secretary said a lot of 
things. That was one thing he said and I think that to kind of 
place it back in context, the Secretary was referring to the 
fact that we are now some time on from the last major strategic 
provocation by North Korea. It has been a while since they have 
either launched a three stage intercontinental ballistic 
missile or tested a nuclear device.
    Mr. Chabot. Do you think he would want to rephrase that 
perhaps differently or would you?
    Mr. Davies. I think in context it is easy to understand 
what the Secretary was saying which is that the cooperation, 
the collaboration, the diplomacy that we have been conducted 
with South Korea, China, and other partners in the process has 
gotten the message through to Pyongyang that when it acts 
strategically, when it tests a nuclear device and it is the 
only country on earth to have done it in this century, when it 
launches a three stage intercontinental ballistic missile that 
the world will react, it will react strongly and unanimously. 
So I think that is what the Secretary is referring to.
    It is absolutely the case and the Secretary has also spoken 
to this as have other senior officials, that North Korea's 
recent behavior is unacceptable. The fact that it continues 
time after time to launch these ballistic missiles, violates 
U.N. Security Council resolutions, that cannot be 
countenanced----
    Mr. Chabot. I would certainly agree with you and the 
administration that it is unacceptable. I certainly wouldn't 
have called it quieter, but that is okay.
    I am going to turn to Ambassador King if I can at this 
time. Ambassador, you have done a commendable job representing 
the North Korea human rights portfolio. I also recognize the 
difficulties you face since the administration doesn't make the 
human rights issue, in my view, enough of a top priority. I 
think at best it is a second-tier issue behind nuclear 
proliferation, even if it is given sometimes lip service by 
calling it a top priority and constant focus. As such, I am 
disappointed that following the release of the U.N. Commission 
of Inquiry Report--in my view--little has been done. No human 
rights sanctions, no executive orders, and no move for a vote 
in the Security Council. Ambassador King, can you tell us what 
is being done at this time to hold North Korea accountable for 
the mass atrocities described in that report? I mean, it was a 
horrific thing to read, and there has been so little movement 
since the report's release. Also, are you aware that there are 
three Americans currently detained in Pyongyang? I am deeply 
concerned particularly about their well-being and safety and 
one of those individuals, Jeffrey Fowle, he is from right 
outside my district in Ohio. I am told he is being brought to 
trial, accused of carrying out hostile acts against the 
country. Can you provide us with an update about this situation 
and where in the process the administration is to get these 
individuals released out of North Korea? And I certainly 
understand in a forum like this, you have to be careful because 
we don't want to jeopardize their situation or put them in any 
more jeopardy than they already are. So I understand that, but 
to the degree that we can, in a forum like this, I would 
appreciate some comment.
    Mr. King. Thank you very much for the question, Mr. 
Chairman. With regard to the attention that we give to North 
Korea human rights, I believe it was Lyndon Johnson that said, 
``You have got to be able to walk and chew gum at the same 
time.'' I think that is what we are trying to do in terms of 
pushing on both the nuclear issue, but also pushing on the 
human rights issue. And I think as we have talked earlier, 
there is a lot that has been done this year with the release of 
the report. We have been attempting to use the U.N. report to 
continue to put pressure on North Korea. In the U.N. Security 
Council, we have already had an informal meeting where we have 
had 13 of the 15 members attend, discuss the report and discuss 
its recommendations.
    We are also in the process of looking toward activity in 
Geneva. We will continue our pressure in Geneva, the Human 
Rights Council on the human rights report. We are also going to 
have discussions in the General Assembly in October at which 
the Commission of Inquiry's report will be discussed. There 
will be a resolution that will be prepared and adopted in the 
General Assembly by the end of this year. We are very active in 
terms of looking at how we might further push this forward in 
terms of action with the Security Council.
    With regard to sanctions, we are looking at sanctions. One 
of the issues that we need to do is try to do whatever we do in 
concert with other countries. Sanctions by the United States 
alone are very limited effectiveness. We have very little 
relationship with North Korea. We have very little trade. We 
have very little economic connection. And to the extent that we 
can work together with our allies and jointly adopt sanctions 
and look at actions that we can take together, I think the more 
effective those issues will be.
    A brief quick comment. The three Americans who are being 
held in North Korea are of great concern to us. We have 
communicated with the North Koreans our concern. We have 
requested repeatedly that they be released on humanitarian 
grounds. This includes Mr. Fowle, as well as Kenneth Bae and 
Matthew Miller. We are hoping to be able to have some progress 
on that. We continue to press the North Koreans. We have 
continued to work through the Swedish Government which takes 
care of our interest with regard to American citizens there. I 
briefed your staff on this. I know you were aware of that. If 
there is anything that we can provide you directly, I would be 
happy to come up and talk with you about that.
    Mr. Chabot. Thank you for that. I would like to continue to 
follow up with you at the staff level on Mr. Fowle, in 
particular, but all of them. Thank you very much.
    I now recognize the acting ranking member, the gentleman 
from California, Mr. Bera.
    Mr. Bera. Thank you, Chairman Chabot. Ambassador Davies, in 
your opening testimony, I think you laid a framework that said 
any movement forward really starts with the framework that was 
laid out in the 2005 Six-Party Talks. That is a starting point 
for us to move forward.
    Also, Ambassador King and Ambassador Davies, in describing 
North Korea, you described them as global pariah. We described 
the crimes against humanity, the human rights violations. And 
it is from this vantage point when you look at the Kim regime, 
it is a regime that is less focused on its people and more 
focused on itself. I empathize with the difficulty of these 
negotiations. We can continue to further isolate North Korea, 
but we have also seen when we do that isolation how the Kim 
regime responds in provocative manners. I think you accurately 
lay out that this is not a U.S.-North Korea negotiation. This 
is a U.S.-Japan-Korea-China-Russia negotiation in the framework 
of regional stability. And of those countries, we all have a 
vested interest in creating a stable region, but the key really 
in this case lies with an active engagement on China's behalf.
    I guess, Ambassador Davies, I would like you to comment on 
the talks that we have had with China, how China is viewing the 
new North Korean regime, and comment on China's role in moving 
these conversations forward.
    Mr. Davies. I would be happy to do that, sir. Thanks so 
much. China and North Korea are not at their best historical 
comment right now. China was very vocal and active beginning 
over 2 years ago when the new third generation of leadership 
took over in Pyongyang in signaling to the North Korean regime 
that they would not support North Korea taking provocative acts 
and North Korea went ahead and did it. So in a sense North 
Korea has not been a good partner of China's of late. And this 
has triggered, I think, a debate in China about the nature of 
its relationship with North Korea. The Chinese have begun to 
take acts that are somewhat remarkable in the historical scheme 
of things, publicly signaling and warning North Korea not to 
engage in strategic provocations, publishing this 900 item 
control list which is somewhat dramatic, cutting off banking 
relations with the Foreign Trade Bank of North Korea, also 
imposing strictures on some customs controls and so forth.
    So our role in this is to work with the Chinese to try to 
figure out and this is the top down. The President has been 
very engaged in this from the Sunnylands Summit of last summer 
on forward and a series of meetings with Xi Jinping how can the 
United States and China in a bilateral diplomacy, but also 
working with our other partners and the five parties to 
convince North Korea that its future does not lie in pursuing 
these weapons of mass destruction. Its future lies in living up 
to the promises that it made in the middle of the last decade 
abandoning the weapons, coming back into the fold of the 
international community, behaving better as an international 
actor, and the Chinese have done these unprecedented things. We 
have said to China that we appreciate it very much. We said 
there is only one problem with the acts that China has taken 
and that is, of course, that they haven't yet worked to 
fundamentally change the calculus of Pyongyang. So this is a 
work in progress. But we have made progress. And we are going 
to keep at it.
    I think the new leadership in Beijing understands they 
can't retain the status quo<greek-l>te deg. forever and this is 
a case where I think if we keep at it, in a multilateral 
endeavor, with the ROK at the core of our concerns and our 
diplomacy, China also quite central that we can ultimately make 
progress.
    Mr. Bera. And if we look at this North Korean regime that 
is provocative and potentially unstabling in the region, as 
inter-trade and inter-dependence, increasing trade between 
Korea and China, Japan and China, ourselves and China, our 
economies are increasingly interconnected in trade and we all 
benefit from a stable region that allows trade to occur. There 
is a real--China has to recognize that an unstable region is 
not in China's interest and really creates some problems. So we 
do have to move forward in a regional conversation. We do have 
to move forward in partners. And I hope China is there 
increasing the pressure and isolating North Korea that they are 
on the wrong path. Thank you. I will yield back.
    Mr. Chabot. The gentleman's time has expired. Thank you 
very much. We will now recognize the gentleman from 
Pennsylvania, Mr. Perry, for 5 minutes.
    Mr. Perry. Thank you, Mr. Chairman. Gentlemen, thanks for 
being here. I was a little late, so I missed your testimony, 
but listened to some of the answers to the questions. It just 
gave me some new questions and some new things to think about.
    Mr. Davies, you talked about we have made gains. And one of 
my questions is going to be this strategy of strategic patience 
and many would contend that it really hasn't done anything and 
my question would be what are the significant results of that?
    Quite honestly, I feel like asking what are the significant 
or insignificant results from the context, maybe I should first 
ask this strategy of strategic patience what is the time frame 
of this? Are we looking at like 1,000 years? Or 100 years? Is 
this my lifetime? Because convincing North Korea's leadership 
that this isn't their pathway to the future, who are we 
kidding?
    Does anybody in this room think that these people have the 
same mindset about their future that the people in here have? 
The leadership? Maybe peasants, maybe the under class, maybe 
the people cited in the Human Rights Council report have that 
view of some brighter future possibly and that it should 
change.
    What would motivate the people at the top to change 
anything? I am really curious. Let me give you a question. What 
are the significant or insignificant results? How long is this 
strategy supposed to go and what makes you think that these 
folks would change their mindset whatsoever?
    Mr. Davies. Well, a couple of things. Strategic patience is 
like a bumper sticker that gets stuck on a car and just doesn't 
get taken off even when the views of the driver change. I have 
been at this job 2\1/2\ years. I have never described our 
policy as strategic patience. So it predates me. It is 
inaccurate.
    Secretary of State, when he was asked about it when he 
first came into office said no, that is not our policy. Our 
policy is strategic impatience with North Korea. We are going 
to continue to do everything we can not to sit down and have a 
coffee klatch with them and try to convince them of the logic 
of it, but to use pressure in particular, to point out to them 
that there is only one way forward. It is the peaceful 
diplomatic path forward. It is living up to their obligations, 
commitments, and promises that they made freely 11 years ago 
and it is going down this path of denuclearization.
    So I think what they care about most in Pyongyang, this 
regime, is surviving. They want to preserve the status quo. 
They don't want anything to rock their boat. They are now--it 
is the world's only historical example of a dynastic communist 
system, father to son, now in the third generation. They want 
to keep that party obviously going on.
    What we are doing, what we are seeking to do with China, 
South Korea, Japan, Russia and the rest of the international 
community is pump up the volume of a message to North Korea 
that that is the road to ruin for North Korea, that trying to 
pour scarce resources into the development of these expensive 
weapon systems while also trying to feed their people which 
they have not been able to do adequately for now almost a 
generation isn't going to work. So what they need to do is give 
up these weapons, begin to play by the rules, begin to live up 
to their own promises----
    Mr. Perry. Listen, I don't mean to just completely 
interrupt you and I am trying to listen. I have got a limited 
amount of time, but pumping up the volume on rhetoric, they are 
hoping to keep it going. And as far as the West or somebody in 
the West or our coalition partners telling them that it is not 
going to work from their perspective at the top, well, it has 
worked for three generations. We are not going to rock the 
boat. And with all due respect, folks, the Human Rights Council 
includes the likes of Cuba and the Democratic Republic of the 
Congo, and some of these bad actors that abuse their own 
citizenry and acting like that is going to be a vehicle to 
shake North Korea's leadership off its foundation.
    I would like to have whatever you folks are drinking and 
eating every day because you have got a wonderful view of some 
rose-colored future. To me, we are the United States. Now 
listen, I am not trying to pose--this is a 20-year-old failure 
in my opinion or so it is not fair to impose all this upon you, 
but taking the same actions of the past, okay, it is not 
strategic--to me, it is strategic apathy or avoidance or 
something. I don't know what it is, but doing the same over and 
over again for the next 20, 30, 40 years and expecting a 
different outcome, if I were here in 40 years, we are going to 
be having the same conversation. You can go ahead and comment, 
but I am frustrated.
    Mr. Davies. Look, again, we are not just talking about 
diplomatic messaging and sending them nice letters. We are 
talking about cutting off the inputs to their weapons programs 
through sanctions, through interdiction. And there have been 
successes there. When Panama rolled up the largest shipment of 
North Korean conventional weapons in July of last year on a 
Korean freighter trying to go through the Panama Canal, that 
was an indicator that the rest of the world gets the message, 
when 80 countries condemned North Korea's decision to test a 
nuclear device beginning of last year and took action to join 
with the sanctions regime internationally to impose costs on 
North Korea, that is what we are talking about here.
    No, we are not talking about some kind of a hortatory 
attempt to convince them through a high school debating 
society. We are talking about taking actions that reduce their 
running room, that cut off their resources, that prevent them 
from selling the weapons systems that they need to sell in 
order to get the inputs for their weapons programs.
    But we are also talking about keeping a hand open to North 
Korea if they have this change of mind. That is the diplomacy 
part of it. I was engaged in negotiating with them at the 
beginning of 2012. We cut a very modest deal with them that 
could have given them a chance back to what they claim they 
want which is security guarantees and all the rest of it and 
they chose not to take it. Instead, they launched a rocket in 
honor of the 100th anniversary of his grandfather's birth. That 
was his choice to make. The result of it was near universal 
condemnation and action taken by nation states.
    It is a little bit like watching paint dry. I understand 
that. The Cold War took three generations. Sometimes, these 
problems are so pernicious that they simply take the patient 
application of increasing amounts of pressure accompanied by 
diplomacy in order to get these actors to realize that they are 
going down a path that leads them nowhere. And so that is our 
strategy. If there is an alternative, we are all ears.
    Mr. Chabot. The gentleman's time has expired. And I would 
like to associate myself with the frustrations of the gentleman 
from Pennsylvania. I think they are well said.
    The gentleman from Virginia is recognized for 5 minutes.
    Mr. Connolly. Well, if we are associating ourselves with 
frustration, I am frustrated, too, and I am sure you are and I 
am sure everyone in the audience is. I am not quite sure what 
the relevance of our frustration is to try to fashion an 
efficacious public policy that creates change. And I would like 
to explore that with both of our witnesses.
    First of all, as you know or may know, we managed a bill 
the other day on the floor, Chairman Royce and myself, that 
passed unanimously adding to the sanctions regime on North 
Korea and I assume you both probably were aware of that and I 
welcome your reaction. I assume you support it and hopefully if 
it becomes law, we can use it as another tool in the kit bag.
    Ambassador Davies?
    Mr. Davies. For us, it is a bit of a third rail to be 
commenting on pending legislation, so I am going to steer clear 
of that with your permission. I think sanctions are a tool that 
is of value and I think we have demonstrated that through the 
actions we have taken both unilaterally and working with our 
partners around the world. We remain very open to further 
sanctions and options, when and if they make sense to deploy 
them, to use them. I am committed to finding a multilateral way 
forward. I wish there were a silver bullet we could fire to 
solve this problem.
    Mr. Connolly. Right.
    Mr. Davies. Smarter people than me would have figured it 
out long ago.
    Mr. Connolly. Let us explore that just a little bit. Where 
do you think the pressure points are? I heard what you were 
saying about China which was quite intriguing, but in some ways 
if China has lost leverage over the regime of Pyongyang, well 
then where are the pressure points that the West can turn to or 
South Korea can turn to to try to rein in behavior or reward 
good behavior, punish bad behavior? I mean where are those 
leverage points?
    Mr. Davies. Well, China hasn't lost leverage. They have 
just decided there are limits to the leverage that they are 
willing to exercise. So when it comes to food and fuel for 
North Korea, China is absolutely critical in that respect. So 
there is more that China could do. But we think it works much 
better if the world and in particular the neighbors of North 
Korea act together on this, supported by the rest of the 
international community.
    The Achilles heel of North Korea is the fact that it 
doesn't have sufficient fossil fuels. It is unable to feed 
itself because it has broken its own economic system, hollowed 
it out over the years. And so in terms of ways to put pressure 
on them, these are some of the ways that we can use to do that.
    Mr. Connolly. And I appreciate that, but I was thinking 
about the normal kinds of leverage when you look at sanctions 
regimes, we are looking at it on Russia right now. Well, the 
ruble is exchanged. They have a stock market. They have 
external investment. They had trade flows, all of which can now 
be influenced in a way they were not as influenced when they 
were the Soviet Union. So they are feeling some heat.
    We don't really have that kind of leverage with the North 
Korea regime, do we?
    Mr. Davies. We have limited leverage because we have almost 
no trade with them.
    Mr. Connolly. Right.
    Mr. Davies. That is correct.
    Mr. Connolly. And of course, they use their nuclear program 
as leverage over the West in terms of food supplies, emergency 
food supplies and the like.
    Mr. Davies. That is correct.
    Mr. Connolly. Yes.
    Mr. Davies. But I should say one of the biggest points of 
leverage we have is the strength of our alliance relationships 
and in particular with the Republic of Korea because it is 
their peninsula, but also with Japan and staying strong and 
solidarity building up our alliance and our ability to defend 
our friends and ourselves against North Korean threats is a 
huge part of what we have.
    Mr. Connolly. Let me just in the last minute I have got, 
explore China's relationship again. If I understood your 
testimony in a sense there has been a reassessment in China 
about the nature of the relationship with the regime in 
Pyongyang. Is that your testimony?
    Mr. Davies. They are debating it, that is correct.
    Mr. Connolly. Okay, they are debating it. Do you believe 
that as part of that debate the new leadership in Beijing is--
well, first of all, the economic ties to South Korea are far 
more important for Beijing, frankly, than North Korea, is that 
not true?
    Mr. Davies. Many multiples.
    Mr. Connolly. Right. So given their exposure and the fact 
that they are stakeholders in the success of the capitalist 
Korea economy, are they, do you believe, more open to 
pressuring the North for say market reforms, similar to their 
own?
    Mr. Davies. They have been trying to convince North Korea 
for years to engage in reform of their economy and the North 
Koreans have resisted that.
    Mr. Connolly. What leverage are the Chinese prepared to use 
to rein in belligerent behavior, try to achieve some of those 
market reforms, and are they prepared, do you believe, in some 
kind of timetable to move eventually toward an accommodation 
with the South, if not outright reunification with the South?
    Mr. Chabot. The gentleman's time has expired, but you can 
answer the question.
    Mr. Davies. I think this is one of the fascinating 
conversations that has sort of occurred during the recent 
summit meeting between President Xi Jinping and Park Geun-hye 
of South Korea and it is fascinating that Beijing is voting 
with its feet, that now the President of China has met multiple 
times with his counterpart in South Korea, has yet to meet 
with, travel to North Korea. So things are beginning to change. 
I wish they were faster, but these are the changes we are 
observing.
    Mr. Chabot. The gentleman from North Carolina, Mr. Holding, 
is recognized for 5 minutes.
    Mr. Holding. Thank you, Mr. Chairman. Mr. Davies, how has 
Rouhani's regime altered the North Korea-Iran relationship?
    Mr. Davies. I am not sure I am qualified to describe what 
is happening between those two countries other than that we 
watch very closely any proliferation or signs of proliferation 
that might exist between North Korea and his regime.
    Mr. Holding. Does the administration have any evidence or 
reason to suggest that North Korea and Iran have intentionally 
focused on different aspects of nuclear weapons capability to 
speed up the final results for both countries?
    Mr. Davies. Well, sir, with great respect, you are starting 
to get me down deep into intelligence matters and these are the 
sorts of things we would be very happy to brief you on in a 
closed hearing, but again, it is a matter of serious 
concentration and strong study by the administration.
    Mr. Holding. Given Iran and North Korea's cooperation in 
the past, do you think it is likely that North Korea would 
share any future nuclear test data with Iran?
    Mr. Davies. You are calling for speculation on the part of 
the witness. I just don't know.
    Mr. Holding. I don't think we are bound by the Federal 
rules of civil----
    Mr. Davies. I am sorry. I am trying to be a little glib. 
But no, again, I think intelligence information----
    Mr. Holding. The witness will answer the question.
    Mr. Chabot. Thank you, Your Honor. You may proceed.
    Mr. Davies. Pardon me, would you like to restate that?
    Mr. Holding. It is a concern of Iran and North Korea have 
cooperated in the past.
    Mr. Davies. I think there is every incentive between them 
to cooperate in some aspect to this, that is correct.
    Mr. Holding. And you don't think there is any--the Rouhani 
regime coming in hasn't changed any of that dynamic there that 
would lead to that--that has led to the cooperation in the 
past?
    Mr. Davies. Not that I am aware of, but one would hope that 
there would be changes.
    Mr. Holding. Your report suggests that North Korean energy 
needs have been met by Iran and that Iran's desire for 
armaments have been met by North Korea. Reports have suggested 
that cooperation. What do we know about trends in oil 
consumption by North Korea and if they are stockpiling Iranian 
oil?
    Mr. Davies. I am not aware of the provision of Iranian oil 
to any great extent I have got to say to North Korea. I am just 
not aware of that.
    Mr. Holding. Switching to Russia a little bit, how have 
increased tensions between Russia and the West affected 
Russia's relationship with North Korea?
    Mr. Davies. Well, Russia's relationship with North Korea 
fundamentally changed in 1989, 1990 when the Soviet Union 
disappeared and the client relationship that existed 
disappeared. And so now they have a very, very small economic 
relationship quite frankly. They have a political relationship, 
but it is not nearly as important as that between Beijing and 
Pyongyang, between China and North Korea.
    Mr. Holding. So you don't believe that the Russians have 
intensified or accelerated any weapons sales to North Korea in 
recent years?
    Mr. Davies. I am not aware of anything significant in that 
regard, no, sir.
    Mr. Holding. North Korea skirts international sanctions in 
a lot of different respects. One thing, I believe they are one 
of the largest suppliers of counterfeit cigarettes in the 
world, believe it or not, counterfeit currency as well. Any 
current administration actions to close these loopholes and 
more rigidly enforce the sanctions that you would like to 
expound on for 1 minute and 10 seconds?
    Mr. Davies. Sure. From the standpoint on counterfeit goods, 
there was a day when that was a booming business. I think that 
that day has passed to some extent, that that is something that 
we watch very, very closely, but North Korea will obviously 
stop at nothing to try to gain resources to develop its weapons 
programs and that is why we concentrate so much energy on 
nonproliferation, not just unilaterally with our friends and 
allies and partners.
    Mr. Holding. All right. Thank you, Mr. Chairman.
    Mr. Chabot. Thank you. The gentleman yields back. The 
gentleman from Georgia, Mr. Collins, is recognized for 5 
minutes.
    Mr. Collins. Thank you, Mr. Chairman. In listening to your 
testimony, I think it is rather interesting, again, with one of 
the key players, with basically the rogueness of North Korea 
and whether their relationship with Iran at least something 
studied a little bit more and I think using your words and I 
may have gotten this just a little bit wrong, but it was 
something to the effect of study and watching what is going on. 
That to me, and there is something in your written testimony 
that says ultimately, Mr. Chairman, our policy is to bring to 
realization that North Korea must take steps necessary to end 
its isolation, respect the human rights of its own people, 
honor its past commitments and national obligations.
    In light of that, what we will call the desirous goal, many 
experts contend that the administration's strategy of strategic 
patience or basically watch and see, has not yet yielded any 
significant results, but rather has served only to benefit 
North Korea by offering it more time or affording it more time 
to pursue its own objectives. What is the administration's 
assessment of its strategy of engagement and strategic 
patience?
    Mr. Davies. Our assessment is that we have made some 
progress, not nearly enough. We have got a lot further to go.
    Mr. Collins. What would you say your greatest 
accomplishment is?
    Mr. Davies. I think our greatest accomplishment is in 
achieving in just the last couple of years two United Nations 
Security Council resolutions with teeth that had attached with 
them resolutions. These were unanimously achieved. China voted 
for them. Russia voted for them. And Hezbollah, Hamas, Iran, 
this whole nexus of issues which I know is very important to 
you, we are doing more than just studying and watching this. 
Obviously, what we are doing is seeking to disrupt illicit 
shipments, enforce these sanctions. We are doing it with our 
partners. We know that they would naturally like to deal with 
each other, but we are doing everything we can to prevent that 
from developing.
    Mr. Collins. I think in the end is what other things beyond 
two United Nations resolutions which may or may not have the 
teeth and the enforcement that some would like to see, beyond 
that, what is the next step? What is the next big 
accomplishment? What is the next thing to ensure basically what 
you said is your own goals, is to encourage North Korea to 
become a model citizen which under the current leadership I am 
not even sure it understands the definition of model 
citizenship. It is a discussion here to have. What would be the 
next process?
    Mr. Davies. Well, we would settle for North Korea starting 
to do what it promised to do a long time ago and has 
tentatively started to do in the past which is to take steps in 
the direction of denuclearizing. In other words, freezing their 
nuclear programs, inviting the IAEA back in to inspect them, 
eventually leading to the dismantlement and elimination of the 
North Korean nuclear weapons program. That is the foundation of 
the six party process that we have been engaged in for many 
years and we have made a great deal of progress with 
particularly China, keeping the solidarity of Japan and the ROK 
with us.
    There is no daylight between any of the three of the 
allies, in order to get North Korea moving down that path of 
denuclearization. They are far away from it. And therefore, we 
are in a pressure phase. And that is what we have concentrated 
a lot of energy on is putting pressure on North Korea so that 
it understands it only has one option and that is the peaceful 
diplomatic option of denuclearization.
    Mr. Collins. And I understand there is some issue and I was 
discussing it with my very capable staff this discussion with 
Iran and going about that issue, but there seems to be at least 
somewhere along the line for North Korea, there is at least 
some ways around what has been <greek-l>quote  deg.``put in 
place for strategic containment and isolation'' for them 
because at this point some of that is just not, in fact, if 
anything, there has been actual--I won't say regression, but 
there has definitely not been a lot of progress shown. They 
seem to be happily going about the fact that they are isolated 
and would like to get back, but they want to do so on their 
terms.
    So I guess the concern and the good part about--and I 
appreciate the chairman having this discussion--is just simply 
the fact of working through others which is a good thing, 
working with others, but somewhere there is a gap in the 
system. Somewhere there seems to be again rogue nations, others 
who will have dealings with North Korea and not pursuing these 
assets and I think that is where maybe a situation which there 
is a much bigger stick along with a carrot that maybe can 
influence this and especially with our South Korean partners in 
this process as well.
    Again, I think it is not an easy situation to answer and I 
appreciate your answers. Thank you.
    Mr. Davies. Thank you.
    Mr. Chabot. Thank you. The gentleman yields back. We will 
go to a second round. I think there will just be two of us 
here, so we should be wrapped up within 10 minutes and I think 
we are going to have votes here shortly. I will begin with 
myself here.
    Recently, Japan and North Korea have reengaged on the issue 
of Japanese nationals abducted by North Korean agents back in 
the '70s and the '80s, an issue that froze relations for the 
past number of years. In fact, I met with the Yokota family 
whose daughter, Megumi Yokota, was abducted by North Korean 
agents back in 1977 at the age of 13 and I have met with them a 
number of times over the years, as well as a number of the 
other families. It is truly a sad and outrageous story.
    Pyongyang agreed to further investigate the fate of 
Japanese abductees in exchange for Tokyo's lifting some 
sanctions which they apparently agreed to do. And it is a 
pretty sad state of affairs when you can leverage kidnapped 
citizens for some relief in sanctions. My question is, what do 
you think will be the likely outcome of this agreement? What is 
North Korea's motivation for reopening the investigations? And 
how much advance notice did the administration have before 
Japan and North Korea reached their agreement? Do you have any 
concerns about these negotiations considering North Korea's 
long record of deception and deceit?
    Mr. Davies. Well, we stand with Japan in terms of their 
desire which we completely understand to try to resolve this 
humanitarian catastrophe. I have met with the Yokotas a number 
of times myself. I was there with our new Ambassador, 
Ambassador Kennedy, when she first met with the Yokotas and the 
families of abductees, so we understand why not just the 
government, but the people of Japan want this resolved and we 
support them in their efforts to do this. The Japanese have 
kept us very closely informed as they have taken these steps, 
these limited steps, with North Korea. And we have indicated to 
Japan and we have said publicly that we are supportive of all 
of the efforts that Japan is undertaking as long as they are 
undertaken transparently. And obviously, what is very important 
for all of us and it is shared concern of the Japanese is that 
we have this paramount concern of the North Korean nuclear 
missile threat and the Japanese have been very explicit in 
indicating to us that they agree with that very much.
    We will watch. We are supportive of it. And we will see 
where it heads. North Korea is now on the hook. They have got 
to conduct this investigation that they promised the Japanese 
that they would conduct and so we will be watching very closely 
to see what kinds of results the North Koreans come up with and 
whether or not it meets the tests that the Japanese are 
imposing on them.
    Mr. Chabot. Also, Ambassador Davies, in your prepared 
statement, you said that China is ``North Korea's last 
remaining patron.'' Considering its budding relationship with 
Russia and illicit networks with countries in the Middle East, 
Iran especially, I wonder if that is completely accurate. And 
the recent economic trade deal between Russia and North Korea 
comes at a very opportune time for Pyongyang. It provides 
Pyongyang with an economic boost that it needs to counter the 
sanctions and also to counter balance the Chinese who have been 
putting some pressure on them but not nearly enough in the 
opinion of many of my colleagues and I. And for Russia, this 
deal undermines U.S. efforts to cut off North Korea's financial 
and economic well being while enhancing its own web of 
influence vis-a-vis the U.S. in, for example, the Ukrainian 
crisis. Can you tell us what sort of goods Russia is providing 
to North Korea, weapons, or oil, or gas, or food? And how is 
the Russian-North Korean relationship being considered as part 
of the administration's strategic calculus and efforts to 
effectively pressure North Korea since Russia is also trying to 
bolster ties with China. Is anything being done to counter this 
trilateral cooperation between these nations?
    Mr. Davies. Well, Mr. Chairman, actually the Russia-North 
Korea relationship is very, very small in terms of trade. And 
some of the steps that Moscow announced were basically a 
recognition of the existing state of affairs. For instance, 
they announced some debt relief for North Korea. I don't think 
anybody in Moscow ever expected that they would get that debt 
repaid to begin with.
    The trade is measured in a few hundreds of millions of 
dollars a year. They have been talking about some new projects 
that could be of interest, infrastructure projects. These are 
longer term undertakings and so far they are still a bit at the 
margins. So we stay in touch with the Russians. I go out to 
Moscow and try to talk to them about this problem. We have a 
shared interest in denuclearization and this is serious on the 
part of Russia. Russia is a stakeholder in the nonproliferation 
treaty. They don't want North Korea to develop nuclear weapons. 
I think they are serious about that. We may have tactical 
differences there that we are going to continue to work on. But 
right now, I think it is fair to say that the agreement, the 
level of agreement that we have on strategic issues with Russia 
outweighs some of these deals that they are talking about at 
the margins right now.
    Mr. Chabot. Thank you very much. My time has expired. The 
gentleman from California is recognized.
    Mr. Bera. Thank you, Chairman. My staff has given me an 
article from The Hill, from yesterday's paper that says North 
Korea threatens nuclear strikes on the White House. I am not 
going to take that seriously, other than maybe they are 
watching some DVDs from Hollywood as well that are getting 
smuggled in. But I do take seriously that they continue to try 
to develop longer range missile technology and so forth and as 
they acquire and develop that technology, they really are a 
threat to not only our regional partners and allies, but Guam 
and some of our territories all the way to Hawaii that we do 
have to take very seriously. And that does create a sense of 
urgency in moving things forward.
    My colleague from Virginia, Mr. Connolly, kind of 
underscored the challenge here. Sanctions with a regime that 
does not seem to care about what happens to its people are very 
difficult and all indications suggest that the Kim regime is 
not taking the interest of the North Korean people at stake 
here. So they are the ones that clearly are suffering. But we 
have a limited tool box here. So certainly as we ratchet up 
those sanctions just thinking through various scenarios, 
Chairman Chabot touched on your opening testimony, Ambassador 
Davies, where China is North Korea's last remaining patron. 
What would happen if China joined us in the sanctions, if we 
are just thinking through and really did cut North Korea off? 
How would North Korea respond?
    Mr. Davies. Well, China has said that they support fully 
the United Nations sanctions And I talked about some of the 
signs that the Chinese are beginning to take really 
unprecedented action in that direction, the signal to North 
Korea that they will pay a price if they don't come around in 
particular on the nuclear issue.
    This is why when we talk to the Chinese, we try to talk 
about how we can work in concert to bring pressure to bear on 
the North Koreans in a surgical way because we don't want to do 
anything to the people of North Korea, but we do want to affect 
the interests of the regime when it comes to obtaining these 
weapons. And we are going to keep at that because we think 
increasingly the core Chinese interests and stability on the 
Korean Peninsula and our core interests in security that these 
are converging concerns. And we are seeing signs for the first 
time in decades that the Chinese also recognize this, that 
their stability will be affected unless we can address 
proactively North Korea's pursuit of these weapons. And so that 
is where we are concentrating our energy and we are saying to 
the Chinese there is more you can do. We respect the fact that 
you are going to make decisions about how you do it, but we 
need to do more. And it is more effective if we can do it 
together with our partners.
    Mr. Bera. What we need to do this in partnership is we are 
increasingly showing North Korea there really is only one path 
forward, that is de-escalation, denuclearization and becoming a 
more conventional nation.
    Shifting to a different scenario, again, North Korea 
continues to posture with missiles toward the South Korean 
border and so forth. Again, not helpful. What would South 
Korea's response be at this juncture? I think South Korean has 
shown incredible restraints, given some of North Korea's 
provocation in recent years, if in fact, there was a misfire 
accidentally or intentionally that were to land in a South 
Korean city. Seoul is not that far away and what have the South 
Koreans indicated that their response would be at this 
juncture?
    Mr. Davies. The South Koreans are increasingly resolved 
that should there be a provocation on the part of North Korea, 
that they will respond. This is, of course, due to the fact 
that in 2010 there were two deadly attacks by North Korea on 
South Korea, that resulted in some deaths of South Korean 
civilians. So this is what our alliance with South Korea is all 
about, ensuring that together we can present this united front 
on the peninsula to North Korea and they can understand that 
they can't repeat the aggression that they portrayed on the 
South in June 1950, that those days are gone and that the best 
path forward is, in fact, the vision that has been laid out by 
the President of South Korea who has talked about a path 
forward involving peaceful unification, people to people, 
infrastructure development and so forth and so far Pyongyang, 
North Korea, has rejected that.
    Mr. Bera. And I would want to make sure that the people in 
South Korea know that, as one of our close allies in the 
region, we do stand with them in this and the right to defend 
themselves.
    Mr. Davies. Absolutely.
    Mr. Bera. And to make sure that those listening in North 
Korea understand that we stand with the South Koreans.
    Mr. Davies. It is job one for us. That is correct.
    Mr. Bera. Absolutely.
    Mr. Chabot. Thank you very much. The gentleman's time has 
expired. That is the end of the questioning this afternoon. We 
want to sincerely thank our panel, Ambassador Davies and 
Ambassador King for your testimony this afternoon. Members will 
have 5 days to revise their statements or submit questions in 
writing and if there is no further business to come before the 
committee, we are adjourned.
    [Whereupon, at 3:20 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
